           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

 BENEFIT PAYMENTS IN INSTANCES WHERE
  THE SOCIAL SECURITY ADMINISTRATION
     REMOVED A DEATH ENTRY FROM
       THE BENEFICIARY'S RECORD

       June 2008   A-06-07-27156




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                           SOCIAL SECURITY
MEMORANDUM

Date:      June 19, 2008                                                                Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Benefit Payments in Instances Where the Social Security Administration Removed a
           Death Entry from the Beneficiary's Record (A-06-07-27156)


           OBJECTIVE

           Our objective was to evaluate the appropriateness of benefits paid in instances when
           the Social Security Administration (SSA) removed a beneficiary’s death entry from the
           Death Master File (DMF).

           BACKGROUND

           The DMF is a publicly available database maintained by SSA that contains detailed
                                                                           1
           information on more than 82 million deceased numberholders. Each year, SSA
           receives death reports for more than 2.5 million individuals and adds the information to
           the DMF. As depicted on the chart below, SSA receives most death reports from
           funeral homes or friends/relatives of the deceased. SSA considers such first party
           death reports to be verified and immediately posts them to the DMF.

                                      SSA SOURCES FOR DEATH REPORTS


                    Friends, Relatives,
                    and Funeral Homes
                          (90%)




                                                 Federal and   Postal Authorities and
                                              State Agencies   Financial Institutions
                                                        (5%)   (5%)




           1
               As of June 2007.
Page 2 - The Commissioner


Other sources of death reports include States and other Federal agencies, as well as
postal authorities and financial institutions. SSA posts nonbeneficiary information to the
DMF without verification. However, if these reports indicate an SSA beneficiary died,
SSA may perform additional verification before terminating benefits or posting the death
                   2
entry to the DMF. Verification of death means that an acceptable reporter (usually
someone in the person's home, a representative payee, a doctor, or hospital) agrees
that the person is deceased and corroborates the date of death, if necessary. 3

The accuracy of death data is a highly sensitive matter for SSA. Erroneous death
entries can lead to benefit termination and result in severe financial hardship and
distress to the beneficiary/recipient. Conversely, the removal of legitimate death entries
could allow for the authorization and payment of fraudulent benefits.

In instances when death reports are posted in error, SSA deletes the death entry from
the DMF (“resurrect” the record) and, when applicable, reinstates benefit payments.
SSA employees may only process transactions to resurrect a record when presented
with proof the original death entry was posted in error. Unless the mistake resulted
from an administrative error, the resurrection transaction should not be processed
before completion of a face-to-face interview with the beneficiary or recipient. To
validate the integrity of these transactions, SSA requires that two employees be
involved in the process. SSA also requires that employees document the events
                                                 4
leading to and facts supporting the transaction.

Since January 2004, SSA has provided us with electronic files containing updates made
to the DMF, including instances when individual records were removed from the DMF.
Preliminary analysis of these files indicated that, from January 2004 through
April 2007, SSA deleted more than 44,000 individuals’ death entries from the DMF.
SSA records indicated 20,623 of these individuals were in current payment status on or
after April 27, 2007 and received approximately $17.2 million in monthly SSA benefit
payments.

RESULTS OF REVIEW

SSA employees did not always adequately document transactions that removed death
entries from beneficiary and recipient payment records. Without this documentation,
SSA did not have assurance that all transactions were legitimate or that subsequent
benefits paid to all resurrected individuals were appropriate.

To obtain assurance the resurrection transactions were legitimate, we attempted to
verify that 50 randomly selected resurrected beneficiaries/recipients in current payment
status were alive. In most cases, we verified the individuals were alive, and benefit

2
    SSA Program Operations Manual System (POMS), GN 02602.050A, Processing Reports of Death.
3
    SSA POMS, GN 02602.050A.2.
4
    SSA POMS, GN 02602.055, Erroneous Death Terminations.
Page 3 - The Commissioner


payments were appropriate. However, in one case, we could not determine whether
the individual was actually alive. This beneficiary did not respond to multiple written
requests or make himself available for an interview.

Additionally, interviews conducted with resurrected individuals identified customer
service-related deficiencies that required attention.

RESURRECTION TRANSACTIONS NOT ADEQUATELY DOCUMENTED

SSA policies and procedures provide detailed instructions for the removal of death
entries from an individual’s record. SSA does not require retention of hard copy
documents to support resurrection transactions. Instead, SSA requires that personnel
who process these transactions input narrative into SSA systems explaining why the
transactions were necessary; document performance of required face-to-face
interviews; and document the names of the SSA employees who initiated and approved
the transactions.

However, SSA did not always comply                     Resurrection Transaction
with these documentation requirements.               Compliance with SSA Policy
We reviewed available documentation
that supported 250 randomly selected
resurrection transactions and found SSA
employees processed the transactions in                  Full               None
full compliance with established policy in              (26%)                (57%)
only 65 cases (26 percent) reviewed.
SSA did not comply with the
                                                              Partial
documentation requirements in                                  (17%)
143 cases (57 percent) reviewed. In
these cases, SSA employees provided
no narrative that explained or justified
the transactions, did not document
face-to-face interviews with the
numberholders and did not record the name of either the transaction initiator or
approver, when required. In the remaining 42 cases (17 percent) reviewed, SSA
employees complied with some, but not all, resurrection documentation requirements.
For example, available documentation referenced a form of identity provided to SSA;
however, the SSA employee who processed the transaction provided no explanation for
the erroneous death entry and did not record their name or the name of the person who
approved the transaction.

Because SSA employees did not sufficiently document these resurrection transactions,
justification was not always available to support that actions taken were appropriate. As
a result, SSA did not always have assurance that benefit payments to these individuals
were legitimate.
Page 4 - The Commissioner


Identities Verified Through In-person Interviews
                                         5
We selected a sample of 50 individuals and attempted to verify their living status
through in-person interviews. We determined that 44 recipients were alive, and 1 was
recently deceased. After our interviews, SSA verified that four of the remaining five
individuals were alive. When we completed our field work, neither we nor SSA was
able to verify the status of the remaining beneficiary. As a result, SSA suspended
benefit payments to this individual pending identity verification. In the Agency
Comments provided to us on June 3, 2008, SSA advised that it confirmed this individual
was alive and reinstated his benefit payments.

Customer Service Problems Discussed with Resurrected Individuals

During our interviews, 20 of 44 resurrected beneficiaries contacted voiced customer
service related complaints about their experience in having erroneous death entries
removed from their SSA records. Issues raised included the following:

•     SSA did not remove erroneous death entries during the initial visit to the field office.
      SSA required that individuals make multiple visits to field offices to correct problems
      that were not of their making. One beneficiary stated that it took four trips to the
      field office before the issue was resolved.

•     Input of erroneous death entries on their SSA records resulted in multiple missed
      benefit payments. One individual stated that it took nearly 1 year for SSA to correct
      the problem and, as a result, many bank fees were incurred.

•     Beneficiaries waited several hours in busy waiting rooms to resolve the erroneous
      death entries and then received what they believed to be discourteous service. One
      beneficiary stated the service was “rude and in bad taste.” Another beneficiary said
      she had to cry before field office staff would take action to correct the problem.

•     SSA did not inform the individuals that the erroneous death entry on their SSA
      record resulted in their personal information being published on the DMF. For
      individuals to effectively protect themselves against possible identity theft that could
      result from the erroneous publication of their personally identifiable information, we
      believe the individuals must be informed the publication occurred. We are
      addressing this issue in more detail in a separate report.

SSA did not always appear to meet its strategic goal 6 of delivering “high-quality,
citizen-centered service” when dealing with individuals erroneously reported as
deceased. To correct erroneous death entries, SSA must obtain proof the individual is
actually alive. Consequently, it is not always possible to complete these transactions at

5
  These individuals were selected from the subgroup where SSA did not comply with the documentation
requirements for processing the resurrection transaction.
6
    SSA’s Strategic Plan 2006-2011, p. 13.
Page 5 - The Commissioner


the initial point of contact. Because death reporting errors may cause serious
hardships, SSA should treat affected individuals with sensitivity, courtesy, and respect.
Ensuring these individuals receive high-quality, citizen-centered service can positively
impact public perception.

CONCLUSION AND RECOMMENDATIONS
SSA employees did not always adequately document resurrection transactions. As a
result, SSA did not have assurance that all transactions were legitimate or subsequent
benefits paid to all resurrected individuals were appropriate. We attempted to verify
whether 50 resurrected individuals in current payment status were alive. In most cases,
we confirmed the individual was alive, and benefit payments were appropriate.
However, in one case, we could not determine whether a resurrected individual was
actually alive. In addition, we noted customer service deficiencies voiced by
resurrected individuals interviewed during the review.

We recommend that SSA:

1. Ensure compliance with SSA policy concerning the documentation of death entry
   removal transactions.
2. Verify the vital status of the individual discussed in the report. If SSA cannot confirm
   the individual is actually alive, SSA should take appropriate action (for example,
   terminate benefits and refer potential fraud case to the Office of Investigations).
3. Remind SSA staff of the importance of treating resurrection cases with a high
   degree of sensitivity.

AGENCY COMMENTS AND OIG RESPONSE

SSA agreed with our recommendations. Regarding Recommendation 2, SSA stated it
was able to verify the individual discussed in the report was alive. The Agency’s
comments are included in Appendix B. In addition to responding to the
recommendations, SSA also provided technical comments which we incorporated as
we believed appropriate.




                                                 Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Scope and Methodology
APPENDIX B – Agency Comments
APPENDIX C – OIG Contacts and Staff Acknowledgments
                                                                      Appendix A

Scope and Methodology
To accomplish our objective, we:

•   Reviewed the Social Security Administration’s (SSA) policies and procedures related
    to erroneous death terminations.

•   Analyzed 46,035 instances (44,876 records) where SSA removed death entries from
    the Death Master File during the period January 2004 through April 2007.

•   Identified 20,623 records that were receiving benefits as of April 27, 2007. We
    randomly selected a sample of 250 records.

•   Reviewed Master Beneficiary, Supplemental Security and Numerical Identification
    Records for the randomly selected sample.

•   Based on the date of resurrection transaction, we determined that 224 of the sample
    cases required electronic documentation, and 26 required hard copy documentation
    to comply with SSA policy. We reviewed SSA’s mainframe for electronic
    documentation and requested hard copy documentation from SSA as applicable.
    We found that SSA did not comply with any of the documentation requirements in
    143 transactions; partially complied with 42 transactions; and fully complied with
    65 transactions.

•   Selected 50 individuals from the subgroup of 143 transactions where SSA did not
    document the resurrection transaction to determine their living status. Of the
    50 individuals selected, we

     conducted in-person interviews with 43;

     obtained SSA’s assistance in interviewing 4 and determining that another was
      properly resurrected;

     determined that 1 was recently deceased; and

     were not able to locate 1.

We performed our audit between May and December 2007 at SSA’s Regional Office in
Dallas, Texas. We did not test the general or application controls of SSA systems that
generated electronic data used for this audit. Instead, we traced selected transactions
to source documents and performed other validation tests. As a result, we found the
data to be sufficiently reliable to meet our audit objectives. The entity audited was the
Office of the Deputy Commissioner for Operations. We conducted this audit in
accordance with generally accepted government auditing standards.
                  Appendix B

Agency Comments
                                         SOCIAL SECURITY


MEMORANDUM


Date:      June 3, 2008                                                          Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      David V. Foster /s/
           Acting Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Benefit Payments in Instances Where the
           Social Security Administration Removed a Death Entry from the Beneficiary's Record" (A-06-
           07-27156)--INFORMATION

           We appreciate OIG’s efforts in conducting this review. Our response to the report findings and
           recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                         B-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "BENEFIT PAYMENTS IN INSTANCES WHERE THE SOCIAL SECURITY
ADMINISTRATION REMOVED A DEATH ENTRY FROM THE BENEFICIARY'S
RECORD" (A-06-07-27156)


Thank you for the opportunity to review and comment on the subject OIG draft report.

The report states that 20 of 44 resurrected beneficiaries voiced customer service related
complaints (page 4). One beneficiary stated that it took four trips to the field office (FO) before
the issue was resolved. There are no details or specific issues cited regarding the nature of the
visits to the FO or the interaction between the beneficiary and FO personnel. It is unclear
whether the multiple trips were necessary because the beneficiary did not provide adequate
documentation or if it was because our current policy may be too restrictive. Given the unclear
and limited information provided, we believe the report should acknowledge that there are
legitimate reasons why multiple visits may be necessary. One reason for multiple visits could be
that other agencies or institutions are involved; e.g., the Centers for Medicare and Medicaid
Services, a bank or financial institution, etc.

Our responses to the specific recommendations are provided below. In addition, we are
providing some technical comments for your consideration.

Recommendation 1

Ensure compliance with our policy concerning the documentation of death entry removal
transactions.

Response

We agree. On April 8, 2008, we issued Administrative Message 08046, titled “Annual Security
Reminders” to remind our employees of the proper procedures.

Recommendation 2

Verify the vital status of the individual discussed in the report. If we cannot confirm the
individual is actually alive, we should take appropriate action (for example, terminate benefits
and refer potential fraud case to the Office of Investigations).

Response

We agree. We have verified the vital status of the individual discussed in the report and
confirmed that the individual is alive. We have reinstated benefits to the individual.

The report should note that we cannot always terminate benefits if we cannot confirm that the
individual is alive. In certain situations, the proper procedure is to suspend rather than terminate


                                                B-2
benefits. We can only terminate benefits if a specific terminating event can be established or if
there is a death alert on our records for the resurrected individual and personal contacts are
unsuccessful. These two situations did not exist for the individual discussed in this report.

Recommendation 3

Remind staff of the importance of treating resurrection cases with a high degree of sensitivity.

Response

We agree. Program Operations Manual System (POMS) instructions GN 02602.055.F (NOTE)
requires employees to notify field office (FO) management of all requests for reinstatement and
FO management is required to notify the Regional Office (RO) and/or Processing Center staff of
these cases. RO staffs have developed mechanisms to review, monitor, and assist with the
processing of erroneous death termination cases. We will issue a reminder to management
officials of the POMS instructions by the end of May 2008.




[In addition to the information listed above, SSA also provided technical comments
which have been addressed, where appropriate, in this report.]




                                                B-3
                                                                      Appendix C

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Ron Gunia, Director, Dallas Audit Division, (214) 767-6620

   Jason Arrington, Audit Manager, (214) 767-1321

Acknowledgments

In addition to those named above:

   Clara Soto, Senior Auditor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-06-07-27156.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Chief Counsel to the Inspector General (OCCIG), Office of External Relations (OER), and
Office of Technology and Resource Management (OTRM). To ensure compliance with policies and
procedures, internal controls, and professional standards, the OIG also has a comprehensive Professional
Responsibility and Quality Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
